No. 19-

 

IN THE
Supreme Court of the Anited States

NATHAN DUCKWORTH AND $144,780.00 IN UNITED
STATES CURRENCY, MORE OR LESS,

Petitioners,
v.
UNITED STATES,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the brief contains
6,414 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 13, 2020.

Chas

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
